No:
IN THE
SUPREME COURT OF THE UNITED STATES
MIKEL CLOTAIRE,
Petitioner,
v.
UNITED STATES OF AMERICA,
Respondent.
DECLARATION VERIFYING TIMELY FILING
Petitioner, Mikel Clotaire, through undersigned counsel and pursuant to SUP.
CT. R. 29.2 and 28 U.S.C. ยง 1746, declares that the Petition for Writ of Certiorari
filed in the above-styled matter was sent in an envelope via third party commercial
carrier for delivery within three days, addressed to the Clerk of the Supreme Court
of the United States, on the 29th day of September, 2020.

Respectfully submitted,
s/; Peter T. Patanzo
PETER T. PATANZO
Fla. Bar No. 174645
Benjamin, Aaronson, Edinger & Patanzo, PA
1700 East Las Olas Blvd., suite 202
Fort Lauderdale, Florida 33301
(954) 779-1700 phone
(954) 779-1771 fax
ppatanzo@benjaminaaronson.com
Counsel for Mr. Clotaire

